Report No. DODIG-2013-046                 February 15, 2013




    DoD Does Not Have Visibility Over the Use of Funds
         Provided to the Department of Energy
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
ADA                           Antideficiency Act
CAP                           Corrective Action Plan
COR                           Contracting Officer’s Representative
DOE                           Department of Energy
DPAP                          Defense Procurement and Acquisition Policy
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
FPDS                          Federal Procurement Data System
MOA                           Memorandum of Agreement
NNSA                          National Nuclear Security Administration
OIG                           Office of Inspector General
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                 and Logistics
USD(C)                        Under Secretary of Defense (Comptroller)/Chief Financial
                                 Officer, DoD
WFO                           Work for Others
                                INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500




                                                                        February 15, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER, DoD

SUBJECT: DoD Does Not Have Visibility Over the Use of Funds Provided to the
         Department of Energy (Report No. DODIG-2013-046)

We are providing this report for your information and use. DoD officials did not place a
priority on interagency acquisitions between DoD and the Department of Energy. As a
result, DoD had no visibility or internal controls over about $7.3 billion in DoD funds
used for the Department of Energy Work for Others program from FY 201 0 through
FY 2012.

We considered management comments on a draft of this report when preparing the final
report. The management comments conformed to the requirements ofDoD
Directive 7650.3; therefore, additional comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077).




                                      As tstant Inspector General
                                      Acquisition and Contract Management
Report No. DODIG-2013-046 (Project No. D2012-D000CF-0133.000)                         February 15, 2013

               Results in Brief: DoD Does Not Have
               Visibility Over the Use of Funds Provided to
               the Department of Energy
What We Did                                             Antideficiency Act violation, as recommended
                                                        in Report No. D-2011-021.
The overall audit objective was to determine
whether the memorandum of agreement (MOA)
and corrective action plan (CAP) between DoD            What We Recommend
and the Department of Energy (DOE) addressed            We recommend that the Director, DPAP:
the findings in DoD OIG Report                          • direct DoD Components to perform a review
No. D-2011-021, “More DoD Oversight Needed                to determine whether they are complying
for Purchases Made Through the Department of              with the MOA and Defense policies issued
Energy,” December 3, 2010, and to determine               as a result of the MOA;
whether DoD personnel complied with the roles           • coordinate with the USD(C) to develop a
and responsibilities outlined in the MOA.                 method for gathering data for DoD-related
                                                          projects with DOE;
What We Found                                           • implement the remaining action items in the
To address conditions identified in the previous          CAP; and
audit report, Defense Procurement and                   • establish a quality control process to enforce
Acquisition Policy (DPAP) and DOE officials               the requirement for DoD Components to
agreed to corrective actions in the MOA and               provide monthly obligation reports for funds
CAP. However, DPAP officials did not fully                provided to DOE and maintain them in an
implement or verify compliance with the MOA               auditable system.
and CAP. Specifically, DPAP officials did not
develop a standardized reporting system to              We recommend that the USD(C):
allow DoD officials to track funds provided to          • require DoD Components to use a standard
DOE; issue guidance that required technical               funding document number where the first
project managers performing oversight to meet             six positions are the DoD activity address
standard contracting officer’s representative             code for the funding agency;
training requirements; or formally collaborate or       • require DoD Components to provide the
meet quarterly with DOE.                                  USD(C) with copies of all funding
                                                          documents sent to DOE; and
These conditions occurred because DPAP                  • instruct the Air Force to initiate a review of
officials did not place a high priority on                the potential Antideficiency Act violation.
implementing the terms of the MOA and CAP.
As a result, DoD did not have visibility over           Management Comments and
approximately $7.3 billion in funds provided to
DOE from FY 2010 through FY 2012.
                                                        Our Response
                                                        The Director, DPAP, and the USD(C) generally
We also determined that Air Force and Under             agreed with the recommendations. The
Secretary of Defense (Comptroller)/Chief                comments were responsive and no further
Financial Officer, DoD, (USD[C]) officials did          comments are required. Please refer to the
not perform a review of a potential                     recommendation table on the back of this page.
                                                    i
Report No. DODIG-2013-046 (Project No. D2012-D000CF-0133.000)               February 15, 2013

Recommendations Table

           Management                  Recommendations           No Additional Comments
                                      Requiring Comment                Required
Director, Defense Procurement and                               A.1
Acquisition Policy
Under Secretary of Defense                                      A.2 and B
(Comptroller)/Chief Financial
Officer, DoD




                                            ii
Table of Contents

Introduction                                                                     1

       Objective                                                                 1
       Background                                                                1
       Review of Internal Controls                                               4

Finding A. DoD Officials Lack Visibility Over Funds Sent to and Work
Performed by Department of Energy                                                5

       Memorandum of Agreement and Corrective Action Plan Identify Corrective
              Actions, but the Implementation of Actions Is Inconsistent         6
       Compliance With Policy Was Untested and Implementation of the             6
              Memorandum of Agreement and Corrective Action Plan Was Not a
              High Priority
       No Visibility Over Funding                                                9
       Conclusion                                                               12
       Recommendations, Management Comments, and Our Response                   12

Finding B. Air Force Potential Antideficiency Act Violation Still Needs
to Be Reviewed                                                                  16

       Air Force Raft Scoring Project With National Nuclear Security
              Administration                                                    16
       Potential Augmentation of Funds                                          16
       Prior Recommendation and DoD Financial Management Regulation
               Requirement Not Followed                                         17
       Recommendation, Management Comment, and Our Response                     17

Appendices

       A. Scope and Methodology                                                 18
              Compliance With Memorandum of Agreement and Corrective
                     Action Plan                                                18
              Attempts at Obtaining an Audit Universe                           18
              Follow-up for DoD OIG Report No. D-2011-021                       18
              Use of Computer-Processed Data                                    19
       B. Prior Coverage                                                        20
       C. Memorandum of Agreement and Corrective Action Plan                    21
       D. Section 801 Waivers                                                   28
       E. Status of Recommendations From DoD OIG Report No. D-2011-021          32
Table of Contents (cont’d)

Management Comments

     Defense Procurement and Acquisition Policy                              38
     Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD   40
Introduction
Objective
The overall objective of the audit was to determine whether the memorandum of
agreement (MOA) and corrective action plan (CAP) between DoD and the Department of
Energy (DOE) addressed the findings in the previous audit and to determine whether
DoD personnel complied with the roles and responsibilities outlined in the MOA. To
address the conditions identified in DoD Office of Inspector General (OIG) Report
No. D-2011-021, “More DoD Oversight Needed for Purchases Made Through the
Department of Energy,” December 3, 2010, the Director, Defense Procurement and
Acquisition Policy (DPAP), developed a MOA with DOE officials. The MOA,
“Governing Department of Defense Funded Work Performed at the Department of
Energy Laboratories and Facilities,” September 2010, outlined DoD and DOE roles and
responsibilities when DOE made purchases on behalf of DoD customers. The MOA
included the CAP.

DoD and DOE officials could not provide a complete list of FY 2011 DoD-related
projects. Therefore, we did not perform a full assessment of DoD’s compliance with the
roles and responsibilities outlined in the MOA. See Appendix A for a discussion of the
scope and methodology. See Appendix B for prior coverage related to the objective.

Background
This audit was part of a series of congressionally mandated audits required by Public
Law 110-417, “Duncan Hunter National Defense Authorization Act for Fiscal
Year 2009,” section 804, “Internal Controls for Procurements on Behalf of the
Department of Defense by Certain Non-Defense Agencies,” October 14, 2008, which
amends Public Law 109-364, “John Warner National Defense Authorization Act for
Fiscal Year 2007,” section 817, “Internal Controls for Procurement on Behalf of the
Department of Defense by Certain Non-Defense Agencies,” October 17, 2006, and
requires the DoD OIG to review DOE purchases made on behalf of DoD customers.

Interagency Acquisition
In 2005, the Government Accountability Office designated management of interagency
contracting as a high risk area. Interagency acquisition is the term used to describe the
procedure by which an agency needing supplies or services obtains them through another
agency’s contract, the acquisition assistance of another agency, or both. Interagency
acquisitions typically involve two Government agencies: the requesting agency and the
servicing agency. The requesting agency is the agency with the requirement and the
servicing agency provides acquisition support. There are two types of interagency
acquisitions—direct and assisted. Direct acquisitions involve a requesting agency
placing an order for goods or services against a servicing agency’s existing contract.
Assisted acquisitions involve a servicing agency acquiring goods or services on behalf of
a requesting agency. In addition, for an assisted acquisition, the servicing agency and the
requesting agency must sign a written interagency agreement that establishes the general

                                             1
terms and conditions governing the relationship between the parties. The interagency
agreement includes the roles and responsibilities for acquisition planning, contract
execution, and administration and management of the contract or order.

DOE and the National Nuclear Security Administration
The mission of DOE was to ensure America’s security and prosperity by addressing its
energy, environmental, and nuclear challenges through transformative science and
technology solutions. According to DOE’s website, DOE had 10 program offices,
21 laboratories and technology centers, and 9 field sites. Of the 21 laboratories and
technology centers, contractors operated or managed 19. In addition, DOE’s website
identified 39 facility management contracts administered by its offices. One of those
offices was the semi-autonomous National Nuclear Security Administration (NNSA).
Congress established NNSA in 2000 as a separate agency within DOE. NNSA was
responsible for the management and security of the nation’s nuclear weapons, nuclear
nonproliferation, and naval reactor programs. According to NNSA’s website, it had
eight sites where federally-run site offices oversaw contractors. Those eight site offices
provided the necessary communication between Federal and contractor employees. A
ninth NNSA location provided business, technical, financial, legal, and management
advice and services.

DOE Work for Others Program
DOE Order 481.1C, “Work for Others (Non-Department of Energy Funded Work),”
approved on January 24, 2005, and updated on March 14, 2011, describes the Work for
Others (WFO) program. The WFO program allows DOE and NNSA facilities and their
respective contractor personnel to perform work on behalf of other agencies.

According to a DOE senior financial policy specialist, DoD provided funds to DOE and
DOE then placed those funds on one of its existing contracts. The DOE senior financial
policy specialist also stated that DoD can provide funding to DOE and NNSA in three
ways. DoD can provide funds:

   •   directly to the laboratory or facility of its choosing,
   •   to an overall site office or program office that can then disburse the funds to
       laboratories and facilities under its purview, or
   •   to DOE headquarters and DOE can disburse the funds internally.

In addition, a DOE official stated that DOE can add DoD funds it receives to any DOE
contract or grant. DOE obligated approximately $2.4 billion in DoD funds in FYs 2010
and 2011 and approximately $2.5 billion in DoD funds in FY 2012, for work to be
performed at DOE’s laboratories and facilities.

DPAP Section 801 Waivers
Public Law 110-181, “National Defense Authorization Act for Fiscal Year 2008,”
section 801, “Internal Controls for Procurements on Behalf of the Department of Defense
by Certain Non-Defense Agencies,” January 28, 2008, states that DoD may not procure
property or services from a non-Defense agency that did not certify it would comply with
                                             2
Defense procurement requirements. However, the Under Secretary of Defense for
Acquisition, Technology, and Logistics (USD[AT&L]) may issue a written waiver
(Section 801 Waiver) stating that the use of a specific non-Defense agency was necessary
and in the best interest of DoD. 1 DOE did not certify that it would comply with Defense
procurement requirements. Therefore, beginning in FY 2010, the Director, DPAP, issued
Section 801 Waivers allowing DoD to provide funds to DOE not to exceed a specified
threshold. Table 1 shows each of the Section 801 Waivers, their period of coverage, and
their threshold limit. See Appendix D for the Section 801 Waivers.

                                   Table 1. Section 801 Waivers
            Waiver Title                 Period of Coverage                     Threshold
                                                                                (in billions)
              FY 2010          October 1, 2009 – March 31, 2010                       *
             FY 2010[A]        October 1, 2009 – September 30, 2010                 $2.2
              FY 2011          October 1, 2010 – September 30, 2011                  2.5
              FY 2012          October 1, 2011 – September 30, 2012                  2.5
                                      Total                                         $7.2
          * The FY 2010[A] Section 801 Waiver amended the FY 2010 Section 801 Waiver that
          included a $900 million FY 2010 Section 801 Waiver threshold. To avoid duplication, we
          did not include the $900 million FY 2010 Section 801 Waiver threshold in the table.

Previous Audit
The audit objective of DoD OIG Report No. D-2011-021 was to examine the policies,
procedures, and internal controls to determine whether there was a legitimate need for
DoD to use DOE, whether DoD clearly defined requirements, whether DoD and DOE
properly used and tracked funds, and whether DoD and DOE complied with Defense
procurement requirements. We reported on 14 WFO projects and identified contracting
and funding issues, including DOE not certifying that it would comply with the
requirements of Section 801 of the National Defense Authorization Act for FY 2008 and
potential Antideficiency Act (ADA) violations.

We recommended that the USD(AT&L) resolve the Section 801 noncompliance issues.
We recommended that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, (USD[C]) instruct the Services and Defense Threat Reduction Agency to
initiate preliminary reviews of potential Antideficiency Act violations and update the
DoD Financial Management Regulation (FMR) with general and detailed funding
guidance. We also recommended that Acquisition Executives for the Army, Navy, and
Air Force, and the Director, Defense Threat Reduction Agency, make program and
contracting officers aware of their responsibilities for obtaining and reviewing detailed
cost information for individual projects that DOE awards on behalf of DoD. See
Appendix E for the management actions taken for the recommendations in DoD OIG
Report No. D-2011-021.


1
    USD(AT&L) delegated the authority to issue waivers to DPAP.

                                                    3
MOA, Corrective Action Plan, and Interagency Agreement
To address the conditions identified in DoD OIG Report No. D-2011-021, DoD and DOE
officials jointly developed the MOA. The purpose of the MOA was to define the
working relationship between DoD and DOE for DoD-funded work performed in
accordance with the WFO program. The CAP, attached to the MOA, identified several
action items and the milestone dates for each of those actions. Examples of the action
items include developing policies, standard cost elements for WFO project proposals, and
standardized reporting requirements outside of the Federal Procurement Data System
(FPDS). For a complete list of action items and the milestone dates, see Appendix C.
DoD and DOE officials also jointly developed the Standard Interagency Agreement
Part A, an overarching agreement for DoD requests to DOE. The Interagency
Agreement, “General,” stated, “[a]ll work in support of and directly funded by the DoD
under the DOE [WFO] program, will be administered in accordance with the signed
[MOA], dated 16 September 2010, between the departments.”

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for DPAP. DPAP officials did not comply with the MOA and CAP or
develop standardized reporting requirements outside of FPDS or require DOE to comply
with Federal Acquisition Regulation (FAR) Subpart 4.6, “Contract Reporting.” In
addition, DoD and DOE could not provide a complete list of detailed WFO project data
or funding amounts within a reasonable timeframe, 2 and DPAP officials did not perform
the tracking necessary to meet the Section 801 Waiver requirements. This occurred
because DPAP officials did not place a priority on keeping track of DoD-related WFO
projects. We will provide a copy of the report to the senior official responsible for
internal controls at the Office of USD(AT&L).




2
  On May 24, 2012, DOE accounting and finance officials stated it would take several months to retrieve
the detailed WFO data. They stated in order to retrieve the detailed data DOE officials would need to issue
a data call to each of the laboratories and facilities each of which would need personnel to manually
retrieve the detailed WFO data and then compile it for the audit team.

                                                     4
Finding A. DoD Officials Lack Visibility Over
Funds Sent to and Work Performed by DOE
DPAP and DOE officials addressed the previous audit findings by agreeing to six
corrective actions 3 in the MOA and CAP. DPAP officials implemented three of the
agreed-upon correction actions. DPAP officials:

    •   performed a feasibility study, jointly with DOE, to determine whether DoD could
        use direct acquisition to purchase from DOE contractors;
    •   established standardized cost elements in cost proposals; and
    •   issued a policy memorandum requiring a DoD contracting officer to review any
        funding increment sent to DOE in excess of $100,000 for DOE purchases made
        on behalf of DoD.

DPAP officials did not implement the remaining three agreed-upon corrective actions.
Specifically, DPAP officials did not:

    •   develop standardized reporting requirements, jointly with DOE, outside of FPDS
        to allow DoD officials to track funds provided for DOE purchases made on behalf
        of DoD;
    •   issue guidance to require technical project managers 4 performing oversight on a
        WFO project to meet standard contracting officer’s representative (COR) training
        requirements. Proper training for the technical project managers would ensure
        that they have the necessary skills to verify that DOE effectively and efficiently
        performed work on DoD’s behalf and validated that DOE contractors invoiced
        costs appropriately; or
    •   meet quarterly with DOE to discuss interagency acquisition issues, evaluate the
        terms of the MOA, or assess the effectiveness of the CAP.

In addition, DPAP officials did not verify or require DoD Components to verify
compliance with the MOA and resultant policies.

DPAP officials did not implement three of the six agreed-upon corrective actions because
they did not place a high priority on implementing the terms of the MOA and CAP. As a
result, DoD did not have visibility over approximately $7.3 billion in funds DOE
obligated for WFO projects—$2.4 billion in FYs 2010 and 2011 and $2.5 billion in
FY 2012. In addition, DoD officials had to rely on DOE to monitor DoD funding levels.



3
  The CAP reflects seven action items, but one action item was to “execute the Memorandum of
Agreement.”
4
  The MOA, section IV, “Administration,” paragraph E, states, “DoD is responsible for technical project
management and will identify in the interagency agreement a technical project manager/COR for each
project. This DoD official shall monitor technical, cost, and schedule performance of the project, and
notify the DOE contracting officer of any questioned costs or performance issues.”

                                                    5
MOA and CAP Identify Corrective Actions, but the
Implementation of Actions Is Inconsistent
DoD and DOE officials jointly developed an MOA and CAP to address conditions
identified in DoD OIG Report No. D-2011-021. DoD and DOE officials must manage
and provide oversight in compliance with the MOA and CAP for work performed by
DOE on behalf of DoD customers. DoD officials were required by the CAP to:

   •   perform a study, jointly with DOE, to determine whether it is desirable and
       feasible for DoD to purchase from DOE contractors through direct acquisition
       (Implemented);
   •   establish standardized cost elements for DOE to include in its cost proposals for
       DoD, so DoD contracting officials can assess each project’s cost proposal for
       price reasonableness (Implemented);
   •   issue a policy memorandum requiring a DoD contracting officer to review any
       funding increment sent to DOE in excess of $100,000 for DOE purchases made
       on behalf of DoD (Implemented);
   •   develop, jointly with DOE, standardized reporting requirements outside of FPDS
       (Not Implemented);
   •   issue a policy requiring technical project managers performing oversight on a
       DoD-related WFO project to meet COR training requirements (Not
       Implemented); and
   •   meet with DOE quarterly to address interagency acquisition issues, MOA issues,
       and CAP items (Not Implemented).

Compliance With Policy Was Untested and
Implementation of the MOA and CAP Was Not a
High Priority
A DPAP official stated that DPAP did not place a high priority on implementing the
terms of the MOA and CAP. In addition, DPAP officials did not verify compliance with
their policies because officials did not monitor or require DoD Components to monitor
DoD customers’ implementation of the MOA and resultant policies. Specifically, DPAP
officials did not monitor whether DoD customers received and reviewed detailed cost
proposals from DOE, DoD contracting officers reviewed funding increments greater than
$100,000, or a technical project manager or COR was assigned to each WFO project. In
addition, the DPAP Policy Memorandum did not specifically require technical project
managers to receive the same training as CORs. Also, DPAP officials did not conduct
quarterly meetings with DOE officials.

                                 A DPAP official stated that DPAP relies on DoD OIG
 A DPAP official stated that     audits to determine whether DoD Components comply
  DPAP relies on DoD OIG         with DPAP policies. The FY 2012 Section 801 Waiver
 audits to determine whether     signed by the Director, DPAP, states that our findings
  DoD Components comply          in Report No. D-2011-021 “do not warrant limiting
    with DPAP policies.          DoD’s use of DoE support.” In addition, the Director,

                                           6
DPAP, determined in the FY 2012 Section 801 Waiver that “it is necessary and in the
interest of the [DoD] to continue to procure property and services through DoE” and
authorized DoD Components to continue to purchase through DOE regardless of the
implementation of any agreed-upon corrective actions.

DoD Direct Acquisition Through DOE Not Feasible
DPAP officials determined that it was not feasible for DoD to purchase through DOE
using direct acquisition. The Director, DPAP, in coordination with DOE officials,
prepared the study, “Department of Defense Potential for Direct Purchases From National
Nuclear Security Administration Sites,” April 16, 2012, as required by the CAP. The
study described the unique relationship between DOE and its contractors. DOE’s
contractors provide skilled personnel, but do not have the infrastructure to perform the
work. DOE, not the contractor, owns the infrastructure (laboratories and assets) used to
perform the work. Therefore, DOE is the only entity that can authorize work under those
contracts. Because of that, DPAP officials determined that “ . . . it would be impossible
and inappropriate for DoD to attempt to contract directly with [DOE] contractors.”

Standardized Cost Elements Provided Necessary Level of Detail
but Compliance Unknown
DPAP officials did not have a process to determine whether DoD customers received and
reviewed detailed cost proposals from DOE. The MOA and interagency agreement listed
the detailed cost elements required to be in DOE proposals for WFO projects performed
on behalf of DoD customers. In addition, the MOA, section IV, “Administration,”
paragraph C, and the Director, DPAP, Policy Memorandum, 5 (DPAP Policy
Memorandum) September 24, 2010, (updated on September 30, 2011) require DoD
officials to assess each project’s cost proposal and document the assessment of cost
reasonableness. The Director, DPAP, should require DoD Components to verify that
DoD customers are receiving and reviewing detailed cost proposals from DOE.

Policy for DoD Contracting Officer Review Issued but
Compliance Unknown
DPAP officials did not have a process in place to determine whether DoD contracting
officers reviewed funding sent to DOE in excess of $100,000. The DPAP Policy
Memorandum requires DoD contracting officers to review any funding increment in
excess of $100,000 being sent to DOE for WFO projects. DoD contracting officers are
required by the policy to ensure sufficient market research was completed; descriptions of
supplies and services were specific, definite, and certain; the interagency agreement
documented cost/price reasonableness; and that a qualified DoD technical project
manager/COR was identified and appointed. The Director, DPAP, should require DoD
Components to perform a review to determine whether DoD contracting officers
reviewed funding sent to DOE in excess of $100,000.


5
 “Department of Defense (DoD)-Wide Policy for Using the Department of Energy’s (DoE’s) Work for
Others (WFO) Program to Access DoE-Owned Research, Development, and Production Facilities through
Interagency Agreements (IAs) in Fiscal Year 2011”

                                                7
No Plans for Standardized Reporting Requirements
Outside of FPDS
DoD and DOE officials did not jointly develop standardized reporting requirements
outside of FPDS, even though the CAP included that requirement with a due date of
                                May 2011 to commence reporting. In addition, DPAP
     DoD officials have no      and DOE officials stated that they had no plans to
   capability to capture data   develop separate reporting requirements outside of
  for specific WFO projects.    FPDS. Until DoD and DOE Components participating
                                in interagency acquisitions develop standardized
reporting requirements, DoD officials have no capability to capture data for specific
WFO projects.

A USD(C) official stated that Department of Treasury officials were developing and
implementing a new reporting system—the Invoice Processing Platform—that could
standardize payment reporting between Federal agencies. According to a Department of
Treasury Financial Management Services Invoice Processing Platform official, the
Marine Corps began a pilot program of the Invoice Processing Platform for internal
transactions in July 2012. The Department of Treasury official stated that the rest of
DoD did not have implementation dates or plans. The Director, DPAP, in coordination
with the USD(C), should determine whether the Invoice Processing Platform meets
DoD’s needs to obtain required data for tracking WFO projects. If the Director, DPAP,
and the USD(C) determine that the Invoice Processing Platform is inadequate or
unavailable for immediate use, they should develop alternatives for gathering data for
WFO projects.

Requirement to Designate a Technical Project Manager/COR
Existed but a Policy for Their Training Not Developed
DPAP officials did not know whether DoD officials designated technical project
managers/CORs for each project as required by the MOA, section IV, “Administration,”
paragraph E. The DPAP Policy Memorandum requires DoD Components to identify “[a]
qualified DoD technical project manager/COR” to perform COR functions. However,
the policy does not specifically require training for technical project managers acting as
CORs. DoD officials were required by the CAP to issue a policy memorandum that
required any technical project manager performing oversight to meet COR training
requirements. The Director, DPAP, should clarify the policy memorandum requiring
DoD technical project managers assigned to WFO projects to meet COR training
requirements.

Quarterly Meetings With DOE Did Not Occur
DoD officials did not meet quarterly with DOE to discuss interagency acquisition,
evaluate the terms of the MOA, or determine the effectiveness of the CAP as required by
the MOA and CAP. DoD and DOE officials participated in informal conversations;
however, according to a DPAP official, those conversations were not specific to the
funding or management of the work DOE performed for DoD. DPAP personnel should


                                            8
meet at least quarterly with DOE officials to discuss interagency acquisition, terms of the
MOA, and effectiveness of the CAP and document the results of the meetings.

No Visibility Over Funding
DoD had no visibility over approximately $7.3 billion provided to DOE from FY 2010
through FY 2012 for DoD-related WFO projects. DOE will not certify that it will
comply with Defense procurement requirements.
Specifically, DOE officials certified that DOE would            DoD had no visibility
comply in FY 2010 with the FAR and the Department of             over approximately
Energy Acquisition Regulation but not with Defense             $7.3 billion provided to
procurement requirements. However, DPAP officials                DOE from FY 2010
determined that the certification was not sufficient to meet      through FY 2012
Section 801 requirements and issued a Section 801 Waiver
and amendment for FY 2010. 6 DOE did not certify it would comply with Section 801
requirements in FY 2011 or FY 2012. The Director, DPAP, issued Section 801 Waivers,
totaling $7.2 billion, from FY 2010 through FY 2012. DPAP and USD(C) officials stated
that DoD relied on DOE to monitor funding levels to verify compliance with the
Section 801 Waiver thresholds.

DoD officials currently have no mechanism to monitor those funding levels. Public
Law 109-282, “Federal Funding Accountability and Transparency Act of 2006,”
September 26, 2006, 7 and FAR subpart 4.6, “Contract Reporting,” require Federal
agencies to record all Federal awards and detailed data associated with those awards,
including the agency that funded the award.

Reporting Requirements
The Federal Funding Accountability and Transparency Act of 2006 required all executive
agencies’ Federal award data to be publicly accessible and stated that FPDS may be used
as a source for Federal award data. FAR subpart 4.6 identified the specific procedures
for entering data into FPDS.

Federal Funding Accountability and Transparency Act of 2006
Beginning in FY 2007, the Federal Funding Accountability and Transparency Act of
2006 required the Office of Management and Budget to maintain a single, publicly
available, searchable website to report all federally awarded funds at the contract level,
including all subcontract awards attributed to the contract, in excess of $25,000. The Act
required Federal agencies to comply with the instructions and guidance issued by the




6
  The Director, DPAP, issued a Section 801 Waiver for FY 2010 that covered DoD requirements through
March 31, 2010. On March 30, 2010, the Director, DPAP, issued an amendment to the Section 801 Waiver
for FY 2010 that covered DoD requirements for the entire fiscal year.
7
  The Federal Funding Accountability and Transparency Act of 2006 was amended by Public Law 110-252,
“Government Funding Transparency Act of 2008,” section 6202, “Disclosure Requirements,” June 30,
2008.

                                                 9
Director of the Office of Management and Budget. In addition, the Act required the
website to identify for each Federal award:

   •   the name of the entity receiving the award,
   •   the amount of the award,
   •   the funding agency,
   •   an award title descriptive of the purpose of each funding action, and
   •   the location of the entity receiving the award and the primary place of
       performance.

The resulting website was USASpending.gov. The Act stated that FPDS may be used as
a source of information to populate the website.

FAR Subpart 4.6, “Contract Reporting”
FAR Subpart 4.6 established the uniform reporting requirements for FPDS. FAR
Subpart 4.6 requires executive agencies to use FPDS to maintain publicly available
information about all contract actions exceeding $3,000. In addition, it requires agencies
awarding assisted or direct acquisitions to report the actions and identify the funding
agency. FAR Subpart 4.6 also states that the contracting officer who awarded the
contract action has the responsibility for submitting the individual contract action into
FPDS.

Detailed WFO Data Not Readily Available
DoD officials cannot use FPDS to identify specific DoD-related WFO projects or to
determine how much funding DoD provided to DOE during a particular fiscal year
because, as reported in Report No. D-2011-021, NNSA contracting officials entered
global contract modifications in FPDS without entering the detailed funding information
for each WFO project. For example, we reported that NNSA contracting officials
included 2,157 funding documents in one contract modification and only two of those
funding documents related to a WFO project for DoD. The total of those 2,157 funding
documents was $10.7 million and DoD’s portion of that funding was only $371,823.
However, the audit team could not identify the individual funding agency information
from FPDS.

In addition, a DOE acquisition official stated in a January 15, 2009, memorandum that
FPDS was:

               not programmed to collect multiple funding sources on a single
               transaction. Therefore, the contracting officer must execute multiple
               contract modifications in order to report actions that have more than
               one funding source. This requirement places a significant burden on
               DOE’s acquisition workforce.

DOE officials stated obtaining detailed information would require DOE personnel to
issue a data call to each DOE laboratory and facility. DOE officials also stated the data
call would require a review of hardcopy project files to provide the requested detailed
information and would take several months to gather.
                                                10
In addition, a USD(C) official stated after attempting to obtain similar information from
DOE for over 2 years, he still did not have a complete and detailed list of funding
documents and corresponding accounting information. To more quickly improve DoD’s
ability to obtain WFO project and funding data from DOE, the USD(C) should require
DoD Components providing funds to DOE to use a standard funding document number
where the first six positions are the DoD activity address code for the funding agency.
In addition, the USD(C) should require DoD Components to provide the USD(C) with
copies of all funding documents sent to DOE.

Obligation Reports Required by Section 801 Waiver
Not Collected
DPAP officials did not obtain monthly obligation reports needed to track funding
provided to DOE, except from the Defense Threat Reduction Agency. The FY 2010
through FY 2012 Section 801 Waivers directed each DoD component with WFO projects
at DOE to maintain funds tracking and to provide monthly obligation reports to DPAP.
Instead, DPAP officials relied on DOE officials to track DoD’s obligations. We obtained
summary funding amounts from DOE accounting
                                                             The DPAP official stated
officials. A DOE senior financial policy specialist
                                                            that he was unaware of the
provided totals for DoD funds that DOE obligated in
                                                            total amount of DoD funds
FYs 2010, 2011, and 2012. The DPAP official stated
                                                                that DOE obligated
that he was unaware of the total amount of DoD funds
that DOE obligated and could not verify that the summary funding amounts provided by
DOE were accurate. Specifically, a DOE senior financial policy specialist provided a
document showing that DOE obligated approximately $2.4 billion in DoD funds in
FY 2010, exceeding the FY 2010 Section 801 Waiver threshold of $2.2 billion (Table 2).
The DPAP official stated that he was unaware that DoD exceeded the waiver threshold
and did not recall DOE officials notifying him of DoD exceeding the waiver threshold.

Table 2. Section 801 Waiver Thresholds Compared to Reported Amounts Obligated
        Fiscal      Waiver Threshold    Reported Amount      Difference
         Year         (in billions)      DOE Obligated       (in billions)
                                           (in billions)
         2010             $2.2               $2.354            $0.154
         2011              2.5                2.355             (0.145)
         2012              2.5                2.544              0.044
         Total            $7.2               $7.253            $0.053
   Note: Amounts are rounded.

The audit team informed the DPAP official on August 9, 2012, that in FY 2011, DOE
obligated DoD funds totaling $2.4 billion, just under the $2.5 billion waiver threshold,
and the official stated that he did not know that the actual funding amount was that close
to the threshold. In addition, the DPAP official stated he was unaware of the total DoD
funding that DOE obligated in FY 2012 and he asked us to notify him when we received
the updated numbers from DOE officials. The Director, DPAP, should establish a quality
control process that will enforce the requirement for DoD Components to provide
                                           11
monthly obligation reports to DPAP and for DPAP officials to maintain this data in an
auditable system. In addition, the Director, DPAP, should request that DOE accounting
officials provide monthly obligation reports of DoD funds provided and whether DoD is
close to exceeding the waiver threshold.

Conclusion
DPAP and USD(C) officials did not have a process in place to determine whether
DoD Components complied with the MOA and CAP or the other policies issued for
WFO projects and funds provided to DOE. As a result, DPAP and USD(C) officials did
not track funds DoD sent to DOE. From FY 2010 through FY 2012, a DOE financial
policy specialist indicated that DOE obligated approximately $7.3 billion in DoD funds,
$53 million more than the amount authorized by the Section 801 Waivers for FY 2010
through FY 2012. Although the Section 801 Waivers require DoD Components to
provide DPAP with monthly obligation updates, the DPAP official responsible for
collecting these reports did not do so because he did not place a high priority on
implementing the MOA or CAP. By implementing the recommendations in this report,
DPAP will demonstrate that officials place a high priority on DoD-related WFO projects
and funding.

Recommendations, Management Comments, and
Our Response
A.1. We recommend that the Director, Defense Procurement and Acquisition
Policy:

       a. Require DoD Components to verify that DoD customers are receiving and
reviewing detailed cost proposals from the Department of Energy.

DPAP Comments
The Director, DPAP, agreed and stated that DPAP officials will include the requirement
for DoD Components to verify that DoD customers are receiving and reviewing detailed
cost proposals from DOE in an update to DoD’s policy memorandum on doing business
with DOE. The Director will issue the policy in February 2013.

       b. Require DoD Components to perform a review to determine whether DoD
contracting officers reviewed funding sent to the Department of Energy in excess of
$100,000.

DPAP Comments
The Director, DPAP, agreed and stated that DPAP officials will include the requirement
for DoD Components to perform a review to determine whether DoD contracting officers
reviewed funding sent to DOE in excess of $100,000 in an update to DoD’s policy
memorandum on doing business with DOE. The Director will issue the policy in
February 2013.



                                          12
       c. Coordinate with the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, to determine whether the Invoice Processing Platform meets
DoD’s needs to obtain required data for tracking DoD-related Work for Others
projects. If the Under Secretary of Defense for Acquisition, Technology, and
Logistics, in coordination with the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, determines that the Invoice Processing Platform is
inadequate or unavailable for immediate use, they should develop alternatives for
gathering data for DoD-related Work for Others projects.

DPAP Comments
The Director, DPAP, agreed and stated that DPAP personnel will coordinate with
USD(C) personnel to ensure DoD officials obtain adequate data in a standard format for
proper tracking of DoD-related WFO projects. In addition, the Director stated that the
USD(C) believes that the Invoice Processing Platform is available for immediate use and
contains much of the functionality needed to conduct intra-governmental transactions.
The Director stated that DPAP and USD(C) personnel will coordinate to develop
alternatives for gathering data in the interim and until it is confirmed that the Invoice
Processing Platform can be used. The Director stated that data reporting will commence
in March 2013.

       d. Clarify policy to specifically require DoD technical project managers
assigned to Work for Others projects to meet contracting officer’s representatives
training requirements.

DPAP Comments
The Director, DPAP, agreed and stated that DPAP officials will include a requirement
that DoD technical project managers assigned to WFO projects obtain minimum COR
training in a comprehensive update to the policy memorandum on doing business with
DOE. The Director will issue the policy in February 2013.

        e. Designate personnel to meet at least quarterly with Department of Energy
officials to discuss interagency acquisition, terms of the memorandum of agreement,
and effectiveness of the corrective action plan and document the results of the
meetings.

DPAP Comments
The Director, DPAP, agreed and stated that DPAP officials will specify the details of the
requirement for personnel to meet at least quarterly with DOE officials in the revision to
the MOA. The Director will issue the MOA in February 2013.

      f. Establish a quality control process that will enforce the requirement for
DoD Components to provide monthly obligation reports to Defense Procurement
and Acquisition Policy and for Defense Procurement and Acquisition Policy to
maintain this data so it is auditable.



                                            13
DPAP Comments
The Director, DPAP, agreed and stated that DPAP officials will include the requirement
to establish a quality control process for DoD Components to provide monthly obligation
reports to DPAP officials in the update to the policy memorandum on doing business
with DOE and the revision of the MOA. The Director will issue the MOA in
February 2013.

       g. Request that Department of Energy accounting officials provide monthly
obligation reports of DoD funds provided and whether DoD is close to exceeding the
waiver threshold.

DPAP Comments
The Director, DPAP, agreed and stated that DPAP officials will include the requirement
for DOE accounting officials to provide monthly obligation reports for DoD funds
provided and whether DoD is close to exceeding the waiver threshold in the revision to
the MOA as a requirement to be executed by DOE. The Director will issue the MOA in
February 2013.

Our Response
Comments from the Director, DPAP, were responsive and met the intent of the
recommendations. No further comments are required.

A.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD:

        a. Require DoD Components providing funds to the Department of Energy
to use a standard funding document number where the first six positions are the
DoD activity address code for the funding agency.

USD(C) Comments
The Deputy Chief Financial Officer responded on behalf of the USD(C). The Deputy
agreed and stated that USD(C) officials plan to find a better way to determine compliance
with financial and acquisition policies. The Deputy stated that the USD(C) plans to
develop a standard process, data set, and solution for capturing intra-governmental
transactions in the long term. In addition, the Deputy stated that the USD(C) can
determine during the Invoice Processing Platform pilot phase whether using a uniform
military interdepartmental purchase request format with the DoD activity address code
for the funding agency in the first six positions is required to make the long term intra-
governmental transactions solution work.

        b. Require DoD Components to provide the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DoD, with copies of all funding documents
sent to the Department of Energy.




                                           14
USD(C) Comments
The Deputy partially agreed and stated that USD(C) officials agree with the intent of the
recommendation. The Deputy stated that DoD personnel can work toward creating a
single repository in the Invoice Processing Platform rather than sending every funding
document to the USD(C). The Deputy stated that until the Invoice Processing Platform is
fully developed, the USD(C) will develop an interim solution for the single repository
such as using the Electronic Document Access system by the end of FY 2013.

Our Response
Comments from the Deputy were responsive and met the intent of the recommendations.
No further comments are required.




                                           15
Finding B. Air Force Potential Antideficiency
Act Violation Still Needs to Be Reviewed
Air Force officials potentially violated the ADA by providing funds to NNSA which
augmented NNSA’s funds. This resulted in a potential ADA violation of $100,000. DoD
OIG reported on this potential ADA violation in Report No. D-2011-021. 8 Air Force and
USD(C) officials did not perform a review of the potential ADA violation, as
recommended in Report No. D-2011-021 and required by DoD Regulation 7000.14-R,
DoD FMR, volume 14, chapter 3, “Preliminary Reviews of Potential Violations.”

Air Force Raft Scoring Project With NNSA
On September 2, 2008, the Air Force 576 FLTS/TMO, 9 Air Force Space Command,
Vandenberg Air Force Base, California, issued military interdepartmental purchase
request F4DEB18246G001 to provide $100,000 to Lawrence Livermore National
Laboratory. The funds were for a WFO project for Lawrence Livermore National
Laboratory to perform raft scoring 10 downrange support for a test launch of an
intercontinental ballistic missile in support of the joint testing and assessment of the
nuclear weapons stockpile program. Lawrence Livermore National Laboratory personnel
accepted military interdepartmental purchase request F4DEB18246G001 on September 5,
2008.

Potential Augmentation of Funds
The audit team determined that a potential ADA violation involving the augmentation of
funds existed because NNSA supplemented its appropriations by using Air Force funds
without specific statutory authority. According to 31 U.S.C., Section 1341a (1)(A)—a
statute included under the ADA:

                  [a]n officer or employee of the United States Government or of the
                  District of Columbia government may not make or authorize an
                  expenditure or obligation exceeding an amount available in an
                  appropriation or fund for the expenditure or obligation . . .

In this situation, the Air Force paid for work that, according to an Air Force official, the
Air Force had not paid for in the past. After reviewing a February 16, 2001,
memorandum of understanding regarding the joint testing and assessment of the nuclear
weapons stockpile between NNSA and the Air Force, we were unable to identify who
was responsible for paying for the work. While it was not clear who was responsible for
paying for the work, it appears that the Air Force augmented NNSA funds.



8
  Report No. D-2011-021 also reported a potential bona fide needs rule violation for this Air Force project.
Air Force officials performed a review of that potential violation and took action to correct the potential
violation.
9
  576 Flight Test Squadron Test Management Operations Program (FLTS/TMO)
10
   Raft scoring refers to rafts with on-board tracking instruments used to score the accuracy of the re-entry
vehicle when it strikes the water.

                                                     16
Prior Recommendation and DoD FMR Requirement
Not Followed
Air Force personnel did not address the potential augmentation of funds in their analysis
of another potential ADA violation discussed in Report No. D-2011-021, which
recommended that the USD(C) instruct the Air Force to initiate a preliminary review of
potential ADA violations.

DoD FMR, volume 14, chapter 3, outlines the requirements for reviewing and reporting
potential ADA violations. Specifically, it requires DoD officials to evaluate potential
ADA violations for validity and completeness and to determine whether a potential
violation occurred.

USD(C) personnel could not provide documentation that showed that USD(C) Office of
General Counsel or Air Force personnel performed a review of the augmentation of
funds, as required by DoD FMR, volume 14, chapter 3. The USD(C) should instruct the
Air Force to conduct a preliminary review of the potential augmentation of funds.

Recommendation, Management Comment, and
Our Response
B. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, instruct the Air Force to initiate a preliminary review and
adjudicate the potential Antideficiency Act violation.

USD(C) Comments
The Deputy Chief Financial Officer responded on behalf of the USD(C). The Deputy
partially agreed and stated that the Air Force Deputy Assistant Secretary for Financial
Operations initiated a preliminary ADA investigation on January 8, 2013. However, the
Deputy states that the recommendation should be redirected to the Deputy Assistant
Secretary for the Air Force for Financial Operations.

Our Response
Comments from the Deputy were responsive and met the intent of the recommendation
because USD(C) officials instructed Air Force officials to initiate a preliminary review of
the potential ADA violation. The Director, Accounting and Reporting, Financial
Operations, officially initiated the preliminary ADA review P13-02 on January 14, 2013
with the memorandum “Request for a Preliminary Antideficiency Act (ADA) Review to
Determine Whether a Potential ADA Violation Occurred.” This ADA was a carryover
from DoD OIG Report No. D-2011-021, “More DoD Oversight Needed for Purchases
Made Through the Department of Energy,” December 3, 2010, and we referred the
recommendation to USD(C) officials in accordance with the 2008 DoD FMR. No further
comments are required.




                                            17
Appendix A. Scope and Methodology
We conducted this performance audit from March 2012 through December 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We reviewed documentation dated May 1994
through October 2012.

Compliance With MOA and CAP
This audit was a follow-on audit to Report No. D-2011-021. The follow-on audit is part
of a series of congressionally mandated audits required by Public Law 110-417,
“National Defense Authorization Act for Fiscal Year 2009,” section 804 “Internal
Controls for Procurements on Behalf of the Department of Defense by Certain
Non-Defense Agencies,” October 14, 2008. We met and interviewed personnel at DPAP,
USD(C), and DOE. We determined whether DoD personnel complied with the roles and
responsibilities outlined in the MOA that DoD and DOE officials jointly developed to
define the roles and responsibilities for DOE work performed on behalf of DoD
customers. We reviewed the MOA and CAP to identify the responsibilities of DoD
officials and followed-up with the appropriate personnel to determine whether they made
progress in executing the requirements of the MOA and CAP. We reviewed the United
States Code, public laws, the FAR, DoD policy memoranda, DoD instructions, and the
DoD Financial Management Regulation for criteria relevant to our audit. We also
reviewed memoranda from the Office of Management and Budget – Office of Federal
Procurement Policy; DOE; the Office of the Deputy Secretary of Defense; and the Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics.

Attempts at Obtaining an Audit Universe
DPAP, USD(C), and DOE officials could not provide us a complete list of DoD-related
WFO projects—projects either wholly or partially funded by DoD—to determine DoD
component compliance with the MOA, CAP, and other DoD policies. In addition, the
audit team tried to obtain an audit universe from Intragovernmental Payment and
Collection records provided by the Defense Finance and Accounting Service and FPDS.
These sources could not provide a complete list of DoD-related WFO projects to the level
of detail required by the Federal Funding Accountability and Transparency Act of 2006
or FAR subpart 4.6.

Follow-up for DoD OIG Report No. D-2011-021
We reviewed recommendations and management comments from DoD OIG
Report No. D-2011-021, to identify managements’ planned actions and the status of the
actions. We obtained and reviewed the case file for DoD OIG Report No. D-2011-021
from the DoD OIG Quality Assurance and Report Followup Division. We followed up
with USD(AT&L), USD(C), Army, Navy, Air Force, and Defense Threat Reduction
Agency officials. We collected documentation to identify management actions taken and

                                           18
the status of each recommendation. A summary of each recommendation and its status is
in Appendix E.

Use of Computer-Processed Data
We did not use computer-processed data to support the audit findings. However, we used
data from the Intragovernmental Payment and Collection system and FPDS in an attempt
to identify an audit universe.

We did not test the reliability of the Intragovernmental Payment and Collection system
data because we determined that the data lacked sufficient detail to identify an audit
universe. To test the reliability of FPDS data, we compared the data to the summary data
we obtained from a DOE financial policy official. The FPDS data did not identify
approximately 95 percent of DoD funds provided to DOE in FY 2011. Therefore, we
determined the FPDS data were not sufficiently reliable to identify an audit universe.




                                           19
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DoD OIG,
Department of the Army, and DOE OIG issued 10 reports discussing interagency
acquisitions. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD OIG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/. Unrestricted
DOE IG reports can be accessed at http://www.ig.energy.gov/reports.htm.

GAO
GAO Report No. GAO-11-394T, “High-Risk Series: An Update,” February 17, 2011

GAO Report No. GAO-10-862T, “Contracting Strategies: Better Data and Management
Needed to Leverage Value of Interagency and Enterprisewide Contracts,” June 30, 2010

GAO Report No. GAO-10-367, “Contracting Strategies: Data and Oversight Problems
Hamper Opportunities to Leverage Value if Interagency and Enterprisewide Contracts,”
April 29, 2010

DoD OIG
DoD OIG Report No. DODIG-2012-072 and Department of Interior IG Report
No. ER-IN-NBC-0001-2011, “A Joint Audit by the Inspectors General of the
U.S. Department of the Interior and the U.S. Department of Defense: DoD’s FY 2010
Purchases Made Through the Department of the Interior,” April 13, 2012

DoD OIG Report No. D-2011-021, “More DoD Oversight Needed for Purchases Made
Through the Department of Energy,” December 3, 2010

DoD OIG Report No. D-2011-018, “FY 2008 and FY 2009 DoD Purchases Made
Through the General Services Administration,” November 30, 2010

DoD OIG Report No. D-2009-064, “FY 2007 DoD Purchases Made Through the
National Institutes of Health,” March 24, 2009

DoD OIG Report No. D-2009-043, “FY 2007 DoD Purchases Made Through the
Department of Veterans Affairs,” January 21, 2009

Army
U.S. Army Audit Agency Report No. A-2009-0016-FFH, “Acquisitions Made Using
Military Interdepartmental Purchase Requests, U.S. Army Medical Command,”
November 17, 2008

DOE OIG
DOE IG Report No. DOE/IG-0829, “Work for Others Performed by the Department of
Energy for the Department of Defense,” October 26, 2009
                                          20
Appendix C. MOA and CAP




                  21
Appendix C. MOA and CAP (cont’d)




                    22
Appendix C. MOA and CAP (cont’d)




                    23
Appendix C. MOA and CAP (cont’d)




                    24
Appendix C. MOA and CAP (cont’d)




                    25
Appendix C. MOA and CAP (cont’d)




                    26
Appendix C. MOA and CAP (cont’d)




                    27
Appendix D. Section 801 Waivers




                    28
Appendix D. Section 801 Waivers (cont’d)




                     29
Appendix D. Section 801 Waivers (cont’d)




                     30
Appendix D. Section 801 Waivers (cont’d)




                     31
     Appendix E. Status of Recommendations From DoD OIG
     Report No. D-2011-021
                     Recommendation                            Management Response to Report                      Management Actions Taken
                                                             Recommendation A.1. USD(AT&L)
       The USD(AT&L) obtain certification from DOE The Director, DPAP, provided comments on               DPAP provided the results of the study. The
       regarding Section 801 requirements or work          behalf of the USD(AT&L). The Director stated   Director, DPAP, concluded that the direct
       with DOE to develop alternative plans to make       that DOE and DoD will conduct a study by       purchase approach is not appropriate.
       direct purchases from NNSA sites. Use of            January 2011 to determine whether the direct
       direct purchases would alleviate most of the        purchase approach is feasible. The Director    The MOA and DPAP Policy incorporated the
       problems identified in this report. If DOE          also provided an MOA that addresses            recommended actions for USD(AT&L).
       certifies that it will comply with Defense          Recommendation A.1 (a-d) and DPAP’s            On September 30, 2011, the Director, DPAP,
       procurement requirements, DoD needs to ensure       Memorandum, “DoD-Wide Policy for Using         reissued the September 24, 2010, policy. The
       that:                                               the Department of Energy’s (DoE’s) Work for    policy is in effect until rescinded.
          a. detailed DoD procurement data related to      Others Program (WFO) to Access DoD-Owned
32




       individual WFO projects are entered into FPDS;      Research, Development and Production
          b. price reasonableness determinations are       Facilities through Interagency Agreements
       made for all WFO projects;                          (IAs) in Fiscal Year 2011,” September 24,
          c. CORs are designated for individual WFO        2010, that implemented Recommendation
       projects; and                                       A.1 (b-d).
          d. individuals are designated to review
       contractor invoices.
     * A list of acronyms used in Appendix E is at the end of the table.
     Appendix E. Status of Recommendations From DoD OIG
     Report No. D-2011-021 (cont’d)
                      Recommendation                              Management Response to Report                         Management Actions Taken
                                                                Recommendation A.2. USD(AT&L)
      The USD(AT&L) establish a requirement that          The Director, DPAP, provided comments on   On September 30, 2011, the Director reissued
      DoD contracting officers review all Economy         behalf of the USD(AT&L). On September 24,  the policy. The policy is in effect until
      Act WFO orders greater than $500,000 before         2010, the Director issued a memorandum to  rescinded.
      sending the order to the funds certifier or issuing DoD Components requiring a contracting
      the Military Interdepartmental Purchase Request officer to review any WFO project in excess of
      to DOE if DOE certifies compliance with             $100,000 before DoD sends funds to DOE,
      Section 801 requirements and continues to           regardless of whether DOE certifies
      provide assisted acquisition support.               compliance with Section 801 requirements.
                                  Recommendation A.3. Department of the Army, Navy, and Air Force and Director, DTRA
33




      Acquisition Executives for the Army make              On October 13, 2010, the Deputy Assistant           On May, 17, 2012, an Army official provided
      DoD requesting activities aware of their              Secretary of the Army (Procurement), stated         documentation that showed the Deputy
      responsibilities for obtaining and reviewing          that his office issued a Principal Assistant        Assistant Secretary of the Army (Procurement)
      detailed cost information for individual WFO          Responsible for Contracting/Policy Chief Alert      issued the policy alert. The Deputy Assistant
      projects including certified cost or pricing data,    directing contracting officers to assess the        Secretary of the Army (Procurement) issued
      when applicable.                                      reasonableness of proposed cost/price               the alert on October 6, 2010. The Deputy
                                                            information for individual WFO projects. He         Assistant Secretary of the Army (Procurement)
                                                            also stated that the Alert included the Director,   attached the DPAP memorandum, “DoD-Wide
                                                            DPAP’s September 24, 2010, memorandum               Policy for Using the Department of Energy’s
                                                            imposing policy for interagency agreements          (DoE’s) Work for Others (WFO) to Access
                                                            with DOE and the FY 2011 Section 801                DoE-Owned Research, Development and
                                                            Waiver.                                             Production Facilities through Interagency
                                                                                                                Agreements (IA’s) in Fiscal Year 2011,”
                                                                                                                September 24, 2010, and the FY 2011
                                                                                                                Section 801 Waiver.
     * A list of acronyms used in Appendix E is at the end of the table.
     Appendix E. Status of Recommendations From DoD OIG
     Report No. D-2011-021 (cont’d)
                     Recommendation                              Management Response to Report                         Management Actions Taken
                              Recommendation A.3. Department of the Army, Navy, and Air Force and Director, DTRA (cont’d)
      Acquisition Executives for the Department of         The Director, Program Analysis and Business         On June 25, 2012, a Navy official provided
      the Navy make DoD requesting activities aware        Transformation, issued comments on behalf of        documentation that showed an OASN(RD&A)
      of their responsibilities for obtaining and          the Deputy Assistant Secretary of the Navy          official notified Navy activities of the
      reviewing detailed cost information for              (Acquisition & Logistics Management). The           requirement for DoD contracting officers to
      individual WFO projects including certified cost     Director stated that the responsibility to obtain   review WFO projects in excess of $100,000.
      or pricing data, when applicable.                    and review certified cost or pricing data and       The OASN(RD&A) issued the notification on
                                                           determine fair and reasonable prices lies with      October 1, 2010.
                                                           the DOE contracting officer. The Director
                                                           agreed that the basis for WFO cost estimates
                                                           needs to be provided to DoD customers.
34




      Acquisition Executives for the Air Force make        On April 18, 2011, the Associate Deputy             Air Force personnel sent out a draft of
      DoD requesting activities aware of their             Assistant Secretary (Contracting), Assistant        Air Force Instruction 65-116 for review and
      responsibilities for obtaining and reviewing         Secretary (Acquisition) for the Air Force, stated   comment on September 19, 2012. Comments
      detailed cost information for individual WFO         that she would request that the Deputy              were due on October 15, 2012. Air Force
      projects including certified cost or pricing data,   Assistant Secretary for Financial Operations        personnel extended the due date for comments
      when applicable.                                     update Air Force Instruction 65-116 to instruct     into November. As of January 23, 2013,
                                                           requiring activities to participate in technical    Air Force personnel were finalizing the draft
                                                           evaluation of offers and review related cost        instruction and preparing to forward it to the
                                                           information when appropriate and when               Air Force publications group for coordination
                                                           required by the contracting officer.                and administrative reviews.

     * A list of acronyms used in Appendix E is at the end of the table.
     Appendix E. Status of Recommendations From DoD OIG
     Report No. D-2011-021 (cont’d)
                   Recommendation                              Management Response to Report                           Management Actions Taken
                             Recommendation A.3. Department of the Army, Navy, and Air Force and Director, DTRA (cont’d)
      The Director, DTRA, make DoD requesting          The Director stated that DTRA officials would           On July 24, 2012, we received a Director,
      activities aware of their responsibilities for   develop a specific management control plan to           DTRA, memorandum dated July 13, 2012, that
      obtaining and reviewing detailed cost            continue enforcing best practices, as well as request   included a list of corrective actions taken.
      information for individual WFO projects          that DOE laboratories consistently provide detailed
      including certified cost or pricing data,        cost information that includes certified cost or
      when applicable.                                 pricing data.
                                                               Recommendation B.1. USD(AT&L)
      The USD(AT&L) initiate changes to the            The Director, DPAP, responded on behalf of the          In an April 16, 2012, memorandum, the
      FAR and DFARS or both as appropriate to          USD(AT&L). The Director stated he will review           Director, DPAP, stated that the Department is
35




      include guidance on the financing of all         the FAR and DFARS in coordination with the              still assessing the potential inconsistencies
      types of contracts with multiple-year            DoD Comptroller to determine whether changes are        between the FAR, DFARS, and DoD FMR.
      appropriations. This should be coordinated       necessary.                                              The Director expected to address the need for
      with the DoD Comptroller’s changes to the                                                                changes by the end of calendar year 2012.
      DoD FMR.
                                                                  Recommendation B.2. USD(C)
      a. The USD(C) instruct the Services and          The Deputy Chief Financial Officer provided             For all of the potential ADA violations, the
      DTRA to initiate preliminary reviews of the      comments on behalf of the USD(C). The Deputy            Comptroller determined that no violation
      potential ADA violations we identified and       Chief Financial Officer stated that the USD(C)          occurred. For four of the six WFO projects,
      to adjudicate each potential ADA violation.      requested preliminary reviews from the services and     DoD realigned and deobligated funds to avoid
                                                       DTRA for the identified potential ADA violations.       violations. However, for one of the four
                                                                                                               projects where DoD realigned funds, the
                                                                                                               Comptroller did not document a review of the
                                                                                                               augmentation of funds issue as identified in
                                                                                                               Finding B of this report.
     * A list of acronyms used in Appendix E is at the end of the table.
     Appendix E. Status of Recommendations From DoD OIG
     Report No. D-2011-021 (cont’d)
                   Recommendation                           Management Response to Draft Report                       Management Actions Taken
                                                              Recommendation B.2. USD(C) (cont’d)
       b. The USD(C) perform additional reviews        The Deputy Chief Financial Officer provided            USD(C) personnel did not perform a review of
       of DoD funding documents related to WFO         comments on behalf of the USD(C). The Deputy           DoD funding documents sent to DOE because
       projects to determine the magnitude of the      Chief Financial Officer stated that the USD(C) will    USD(C) personnel did not receive the
       potential funding problems we identified        request information on DoD funding documents           appropriate funding information from DOE,
       and take appropriate actions to prevent         from DOE. Sufficient details would be requested to     and, as of September 20, 2012, DoD had no
       these issues from occurring in the future.      determine the extent of the funding problems.          process for obtaining data internally.
       c. The USD(C) update guidance in the            The Deputy Chief Financial Officer provided            In March 2012, USD(C) officials updated
       DoD FMR on how to fund severable and            comments on behalf of the USD(C). The Deputy           volume 11A, chapter 3, “Economy Act
       nonseverable contracts when using               Chief Financial Officer stated that USD(C) officials   Orders,” of the DoD FMR.
       multiple-year appropriations, in particular,    would update the DoD FMR for clarity.
36




       those using RDT&E funds.
     * A list of acronyms used in Appendix E is at the end of the table.
     Appendix E. Status of Recommendations From DoD OIG
     Report No. D-2011-021 (cont’d)
                   Recommendation                           Management Response to Draft Report                    Management Actions Taken
                                                              Recommendation B.2. USD(C) (cont’d)
      d. The USD(C) require financial personnel        The Deputy Chief Financial Officer provided         USD(C) officials changed the frequency of the
      to receive training that focuses on the use of   comments on behalf of the USD(C). The Deputy        fiscal law training requirement from every 5
      RDT&E funds. The training should                 Chief Financial Officer stated that rather than     years to every 3 years.
      emphasize the bona fide needs rule and           proposing training solely on the use of RDT&E
      potential ADA violations.                        funds, USD(C) officials will work on updating the
                                                       widely available training that already exists to
                                                       highlight the planned changes of the DoD FMR as
                                                       described in Recommendation B.2.c.
     ADA             Antideficiency Act
     COR             Contracting Officer’s Representative
37




     DFARS           Defense Federal Acquisition Regulation Supplement
     DoD FMR         DoD Financial Management Regulation
     DOE             Department of Energy
     DPAP            Defense Procurement and Acquisition Policy
     DTRA            Defense Threat Reduction Agency
     FAR             Federal Acquisition Regulation
     MOA             Memorandum of Agreement
     NNSA            National Nuclear Security Administration
     OASN(RD&A)      Office of the Assistant Secretary of the Navy (Research, Development, and Acquisition)
     RDT&E           Research, Development, Test, and Evaluation
     USD(AT&L)       Under Secretary of Defense for Acquisition, Technology, and Logistics
     USD(C)          Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
     WFO             Work For Others
Defense Procurement and Acquisition Policy Comments




                 Click to add JPEG file




                                  38
Click to add JPEG file




                 39
Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, Comments




                  Click to add JPEG file




                                   40
Click to add JPEG file




                 41
Click to add JPEG file




                 42
